Visa Account Rates, Fees and Terms
SECURITY INTEREST IN SHARES
By accepting or authorizing use of any credit cards issued by Advantis Credit Union, I/we grant Advantis a
security interest in present and future funds on deposit with the credit union to secure payment of my
obligations on this account.

INTEREST RATES AND INTEREST CHARGES
Annual Percentage Rate (APR) for
Purchases, Cash Advances, and
Balance Transfers

Visa Classic / Start Credit Card
Program

8.9% to 17.9%

Visa Platinum

8.4% to 17.4%

Visa Platinum Rewards

8.4% to 17.4%

Paying Interest

Your due date is at least 25 days after the close of each billing cycle. We will
not charge you any interest on purchases made with your card if you pay your
entire balance by the due date each month. We will begin charging interest on
cash advances, balance transfers and checks on the posting date.

For Credit Card Tips from the
Consumer Financial Protection
Bureau

To learn more about factors to consider when applying for or using a credit
card, visit the website of the Consumer Financial Protection Bureau at
http://www.consumerfinance.gov/askcfpb/
FEES

Annual Fee

Visa Classic / Start Credit Card Program: None

0000001 1 AT 0.460 11/18 C1

1/7/2021 SD

Visa Platinum: None
Visa Platinum Travel: $45.00
Transaction Fees


Cash Advance

None



Balance Transfer

None



Foreign Transaction

1.00% of the US dollar amount of the foreign transaction for foreign currency
conversions
0.80% of the US dollar amount of the foreign transaction for International
Service Fee (ISA)

Penalty Fees


Late Payment

Up to $35



Card Replacement

$8.00/card



Returned Payment

$12.00

How We Will Calculate Your Balance: We use a method called “average daily balance” (including new purchases).
APR is based on creditworthiness.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in your
account agreement.

Rate Adjustments: This is an adjustable rate loan. Rates may change at the discretion of the credit union and you will
be given advance notice before any rate increase. Rate increases will not apply to account balances outstanding at the
time notice is provided.
Late Payment Fees: A late fee will be assessed during any billing cycle in which your payment is not received within ten
(10) days of the due date. Late fees will be $25 for the first late payment and $35 for any late payment during the
following six (6) billing cycles.
These Account Disclosures for the Visa Credit Card are part of and integrated with your VISA Credit Card Agreement with
Advantis Credit Union. We reserve the right to amend the VISA Credit Card Agreement as permitted by law. Rate
information is accurate as of 1/25/2018.

Visa Credit Card Account Agreement
This Agreement covers the VISA Credit Card Account issued by Advantis Credit Union (“Credit Union”). In this Agreement
the words “you,” “your,” “yours,” “applicant,” and “Borrowers” mean any person who signs the application for this Account,
any joint obligor, guarantor, authorized user, or the person whose name is embossed on the Card. The words “we,” “us,”
“our,” and “Credit Union” means Advantis Credit Union. The word “Card” means any one or more credit cards issued
under this Account. If you sign an application for this Account or sign or use any Card or PIN, or allow others to use the
Card or PIN, you and they will have accepted this Agreement just as if you and they signed it, and you and they, jointly
and severally, will be bound by the following terms and conditions which will govern this Account.
1. YOU PROMISE TO PAY
You promise to pay us all amounts, plus any FINANCE CHARGES, which arise from use of the Card or Account by you or
any other person, and to be jointly and severally liable with such a person, unless such other person does not have actual,
implied, or apparent authority for such use, and you received no benefit from the use. You promise to pay us either by
direct payment or by automatic transfers from shares or by payroll deduction.
2. PURCHASES AND CASH ADVANCES
You must sign the Card to use it. Once you have signed the Card, you can use it to buy or lease goods, services, or
insurance wherever the Card is honored, up to the full amount of your Credit Line. You may use your Account to get cash
advances from us. You may also use your Card to get a cash advance from VISA ATMs and participating financial
institutions. In addition, you may obtain cash advances by overdrawing your checking account. Loan overdraft transfers
will be made in increments of $100 to the amount necessary to cover the overdraft. You authorize us to charge your
account and deposit such funds to your checking account. You understand that you will be liable for overdraft advances
accessed by any authorized person on your checking account. If we approve, you may obtain advances under your
account by writing preprinted convenience checks that we supply to you. Your use of loan checks will be shown as credit
advances on your monthly statement. We may not honor your loan check if: your check is postdated; payment of loan
check would exceed your credit limit; a loan check is signed by a person without authorized access to your account; the
amount of the loan check is less than the minimum required amount; your account has been terminated or suspended or
any loan checks have been reported lost or stolen. You may stop payment on a loan check if you provide us with the
exact information describing the check and providing us with adequate notice to act on the stop payment instruction. If you
give us incorrect information, we will not be responsible for failing to stop payment of the loan and you will be responsible
for repayment of the amount of the check. You understand there may be a charge for each stop payment order requested
and any loan check returned. Our liability for wrongful dishonor is limited to your actual damages; however, a dishonor for
reasons stated above is not a wrongful dishonor. You may not use the Card for any illegal or unlawful transaction, and we
may decline to authorize any transaction that we believe poses an undue risk of illegality or unlawfulness.
3. CREDIT LINE
If your application is approved by us, this Agreement will constitute a revolving line of credit for an amount which will be
the Credit Line under your Account. We will advise you of the amount of your Credit Line. That amount will be the
maximum amount you may have outstanding at any one time. You agree not to attempt to obtain more credit than the
amount of your Credit Line. However, if you temporarily exceed your Credit Line, you agree to repay the excess
immediately, even if we have not yet billed you. Obtaining such credit does not increase your Credit Line. We retain the
right to increase or decrease your Credit Line at any time. Any increase or reduction in the amount of your Credit Line will
be shown on your monthly statement or by separate notice together with any changes in the applicable Minimum

Updated 8/26/2019

Monthly Payments. Your eligibility for this Credit Line is determined by our loan policy and may be terminated at our sole
discretion, without demand or notice. You may close your Credit Line at any time by notifying us in writing and returning all
Cards cut in half. If you terminate this Agreement or if we terminate or suspend your credit privileges, the provisions of this
Agreement and your liability hereunder shall otherwise remain in full force and effect until you have paid us all sums due
us under this Agreement and returned all Cards.
4. MINIMUM MONTHLY PAYMENT
You agree that you will pay each month not less than the Minimum Monthly Payment on or before the scheduled monthly
due date. Minimum Monthly Payments include all amounts past due, late charges, overlimit charges, and the minimum
regular payment. The minimum regular payment will be 3% of your Total New Balance, or $25, whichever is greater. If
your outstanding balance is $25 or less, you agree to pay the balance in full. Every month you must pay the Minimum
Payment by the due date shown on your statement. You may pay in full for all your purchases and cash advances each
month, or you may repay in monthly installments. We can accept late payments or partial payments, or checks, drafts,
and money orders marked “payment in full,” without prejudice to our rights under this Agreement, which are hereby
explicitly reserved. Payments will be applied first to overlimit and/or late charges, previously billed and unpaid FINANCE
CHARGES, previously billed and unpaid purchases, and the remainder, if any, to cash advances.
5. SECURITY INTEREST/PLEDGE OF SHARES
To secure your Account, you grant us a purchase money security interest under the Oregon Uniform Commercial Code
in any goods you purchase through your Account. If you default, we will have the right to recover any of these goods
which have not been paid for through application of your payments in the manner described in Section 4. Collateral
securing other loans with the Credit Union, except loans secured by real property, also secures this Account. You also
pledge all of your present and future shares and any earnings thereon as security for obligations under your account. You
understand that if you default on your VISA Account, we may apply all that is pledged to your VISA Account (IRA and
Keogh accounts are excluded from the Pledge of Shares).
6. PERIODIC STATEMENTS
Each month, we will send you a statement showing new purchases, cash advances, payments, and credits made to your
Account during the billing cycle, your Previous Balance, your “Total New Balance,” any FINANCE CHARGE, and any
other charges. Your statement also will identify the remaining credit limit available and the Minimum Monthly Payment you
must make for that billing period and the date it is due. You agree to retain for statement verification copies of transaction
slips resulting from each purchase, each advance, and other transactions on your Account. Unless you notify us of a
billing error as described below, you accept your monthly statement as an accurate statement of your Account with us.

0000001 1 AT 0.460 13/18 C1

1/7/2021 SD

7. CIRCUMSTANCES UNDER WHICH A FINANCE CHARGE WILL BE IMPOSED
The total outstanding balance of purchases and cash advances in the Account on the closing date of a billing cycle,
including any FINANCE CHARGE will be shown on the Periodic Statement for that billing cycle as the “New Balance.”
a. Cash Advances. A FINANCE CHARGE will be imposed on cash advances (including balance transfers) from the date
each cash advance is made. There is no time period within which to pay to avoid a periodic FINANCE CHARGE on cash
advances.
b. Purchases. Your due date will be at least 25 days after the closing date. A FINANCE CHARGE will be imposed on the
unpaid portion of purchases included in the new balance when the entire new balance is not paid in full by the due date
shown on the statement. This “grace period” allows you to avoid a FINANCE CHARGE on purchases for a billing cycle (if
there is no unpaid purchase balance from the prior cycle). If you do not pay within the grace period, your FINANCE
CHARGE will accrue from the first day of the billing cycle in which payment is due, and will accrue on new purchases from
the date of purchase.
8. METHOD USED TO DETERMINE THE BALANCE ON WHICH THE FINANCE CHARGE MAY BE
COMPUTED AND AMOUNT OF FINANCE CHARGE
The Credit Union figures the Periodic FINANCE CHARGE on your Account by applying the Periodic Rate to the “Average
Daily Balance” of new and previous unpaid transactions for your Account, and multiplying by the number of days in the
billing cycle. To get the “Average Daily Balance” we take the beginning purchase and cash advance balances of your
Account each day, add any new purchases and cash advances, insurance premiums or debit adjustments or charges and
subtract any payments or credits, unpaid FINANCE CHARGES and unpaid late charges, and the amount that is subject to
Updated 8/26/2019

the grace period. This gives us the daily balance. Then we add up all the daily balances for the billing cycle and divide by
the number of days in the billing cycle. This gives us the Average Daily balance for purchases and for cash advances.
9. PERIODIC RATE AND CORRESPONDING ANNUAL RATE
The Daily Periodic Rate and corresponding ANNUAL PERCENTAGE RATE for your Account is based on your credit
history. A range of Daily Periodic Rates and ANNUAL PERCENTAGE RATES currently offered by the Credit Union is set
forth in the Loan Rate Schedule, which is incorporated into this Agreement by reference and as amended from time to
time. The Daily Periodic Rate and ANNUAL PERCENTAGE RATE that will apply to your Account will be disclosed on the
notice that accompanies (and is part of) this Agreement.
10. CONDITIONS UNDER WHICH OTHER CHARGES MAY BE IMPOSED
You agree to pay all applicable fees and charges to your account for: payments that are past due for a period of ten (10)
or more days; each check returned to the Credit Union for insufficient funds, account closure or any other reason;
photocopies of sales drafts or account statements and any associated research time; annual card fee; replacement card
fee; recovery of lost, stolen or cancelled card fee; ATM network transaction fees; and any other related fees and charges
as set forth on the Credit Unions Rate and Fee Schedule as incorporated herein by reference and as amended from time
to time. If you default on any part of this Agreement, you agree to pay us all costs to collect your Account, including court
costs and reasonable attorney fees whether or not there is a lawsuit, and fees on any appeal and fees for bankruptcy
proceedings, appeals, and any post judgment collection services, if applicable. These fees and costs may be added to
your Account balance and will bear interest at the ANNUAL PERCENTAGE RATE in effect at that time.
11. CONDITIONS OF CARD USE
The use of your Card and Account are subject to the following conditions:
a. Ownership of Cards. Any Card or other credit instrument or device which we supply to you is our property and must be
returned to us, or to any person whom we authorize to act as our agent, or to any person who is authorized to honor the
Card, immediately according to instructions. The Card may be repossessed at any time in our sole discretion without
demand or notice. You cannot transfer your Card or Account to another person.
b. Signing the Card. The Card we supply to you is not valid unless signed. By signing, accepting, retaining or using the
Card, cardholder and all users agree to all terms and conditions set forth by the Credit Union.
c. Honoring the Card. Neither we nor merchants authorized to honor the Card will be responsible for the failure or refusal
to honor the Card or any other credit instrument or device we supply to you. If a merchant agrees to give you a refund or
adjustment, you agree to accept a credit to your Account in lieu of a cash refund.
d. Foreign Transactions. Visa purchases and cash advances made in foreign countries and foreign currencies will be
billed to you in U.S. dollars. The exchange rate between the transaction currency and the billing currency used for
processing international transactions is a rate selected by Visa from a range of rates available in wholesale currency
markets for the applicable central processing date, which rate may vary from the rate Visa itself receives, or the
government-mandated rate in effect for the applicable central processing date. The exchange rate used on the processing
date may differ from the rate that would have been used on the purchase date or cardholder statement posting date. In
addition, you will be accessed a fee for any card purchase or cash withdrawal involving a currency conversion. You will
also be assessed an International Service Assessment (ISA) fee for all purchases and cash advances made in foreign
countries but in U.S. Dollars. See our Rate and Fee Schedule for the current Foreign Currency Conversion fee and ISA
fee.
e. Notices and Payments. All notices will be sent to your address as shown in the application. You agree to advise us
promptly if you change your mailing address. All payments should be mailed to us at the remittance address shown on
your monthly statements. Payments received at that address will be credited to your Account as of the date received.
f. Personal Identification Number. If we issue you a Personal Identification Number (PIN) for use with your Card in
accessing your line of credit at automated teller machines (ATMs), these numbers are issued to you for your security
purposes. These numbers are confidential and should not be disclosed to third parties. You are responsible for
safekeeping your PIN. You agree not to disclose or otherwise make available your PIN to anyone not authorized to sign
on your Accounts. To keep your Account secure, please do not write your PIN on your Card or keep it in the same place
as your Card.

Updated 8/26/2019

12. DEFAULT
You will be in default under this Agreement if any of the following occur: (a) Any Minimum Monthly Payment is not made
when due; (b) You become insolvent, bankrupt, or you die; (c) You violate any part of this Agreement, or any other
agreement with us; or (d) if we reasonably deem ourselves insecure with respect to your Account. Upon default, we may
declare the entire unpaid balance immediately due and payable, and you agree to pay that amount plus any attorneys
fees and costs incurred by us. We can delay enforcing any right under this Agreement without losing that right or any
other right. We will notify you in writing of any such action as soon as practical if it occurs.
13. GOVERNING LAW
This Agreement will not take effect until it is approved by us. This Agreement shall be governed by the laws of the State of
Oregon.
14. SEVERABILITY
If any provision of this Agreement is held invalid, the remaining provisions that are severable shall remain in effect.
15. LOSS OR THEFT OF CREDIT CARD
You agree to notify us immediately, orally or in writing, at Advantis Credit Union, PO Box 14220, Portland, Oregon 972930220, or telephone 503 785-2528 or 800 547-5532, of the loss, theft or unauthorized use of your Credit Card. If you notify
us of your lost or stolen Credit Card, you will not be liable for any losses. This liability exclusion will apply provided you
were not grossly negligent or fraudulent in handling your credit card, otherwise your liability for unauthorized VISA Credit
Card transactions may be up to $50.
16. CREDIT INFORMATION/FINANCIAL STATEMENTS
You authorize us to release information to others (e.g., credit bureaus, merchants, and other financial institutions)
regarding the status and history of your Credit Line. You agree to provide us, at any time we deem necessary, with a
current financial statement and/or a new credit application upon request. We may investigate your credit directly or
through a credit reporting agency.

0000001 1 AT 0.460 15/18 C1

1/7/2021 SD

17. CARD INFORMATION UPDATES AND AUTHORIZATIONS
If you have authorized a merchant to bill charges to your card on a recurring basis, it is your responsibility to notify the
merchant in the event your card is replaced, your card information (such as card number and expiration date) changes, or
the account associated with your card is closed. However, if your card is replaced or card information changes, you
authorize us, without obligation on our part, to provide the updated card information to the merchant in order to permit the
merchant to bill recurring charges to the card. You authorize us to apply such recurring charges to the card until you notify
us that you have revoked authorization for the charges to your card.
Your card is automatically enrolled in an information updating service. Through this service, your updated card information
(such as card number and expiration date) may be shared with participating merchants to facilitate continued recurring
charges. Updates are not guaranteed before your next payment to a merchant is due. You are responsible for making
direct payment until recurring charges resume. To revoke your authorization allowing us to provide updated card
information to a merchant, please contact us.
18. ACKNOWLEDGMENT AND AMENDMENTS
You understand and agree to the terms and conditions in this Agreement and the Fair Credit Billing Notice. You
acknowledge that you have received a copy of this Agreement and Disclosure and the Fair Credit Billing Notice. We
have the right to change any terms or conditions of this Agreement at any time, subject to applicable laws.
19. BILLING ERRORS NOTICE, YOUR BILLING RIGHTS
Keep This Notice for Future Use. This notice contains important information about your rights and our responsibilities
under the Fair Credit Billing Act. Notify Us in Case of Errors or Questions About Your Bill. If you think your bill is
wrong, or if you need more information about a transaction on your bill, write to us at the address listed above. Write to
Updated 8/26/2019

us as soon as possible. We must hear from you no later than 60 days after we sent you the first bill on which the error or
problem appeared. You can telephone us, but doing so will not preserve your rights. In your letter, give us the following
information:




Your name and Account number.
The dollar amount of the suspected error.
Describe the error and explain, if you can, why you believe there is an error. If you need more information,
describe the item you are not sure about.

If you have authorized us to pay your Account bill automatically from your savings or checking account, you can stop the
payment on any amount you think is wrong. To stop the payment your letter must reach us three business days before the
automatic payment is scheduled to occur.
Your Rights and Our Responsibilities After We Receive Your Written Notice
We must acknowledge your letter within 30 days, unless we have corrected the error by then. Within 90 days, we must
either correct the error or explain why we believe the bill was correct. After we receive your letter, we cannot try to collect
any amount you question, or report you as delinquent. We can continue to bill you for the amount you question, including
FINANCE CHARGES, and we can apply any unpaid amount against your credit limit. You do not have to pay any
questioned amount while we are investigating, but you are still obligated to pay the parts of your bill that are not in
question. If we find that we made a mistake on your bill, you will not have to pay any FINANCE CHARGE related to any
questioned amount. If we didn’t make a mistake, you may have to pay FINANCE CHARGES, and you will have to make
up any missed payments on the questioned amount. In either case, we will send you a statement of the amount you owe
and the date that it is due. If you fail to pay the amount that we think you owe, we may report you as delinquent. However,
if our explanation does not satisfy you and you write to us within ten days telling us that you still refuse to pay, we must tell
anyone we report you to that you have a question about your bill. And, we must tell you the name of anyone to whom we
reported you. We must tell anyone we report you to that the matter has been settled between us when it finally is. If we
don’t follow these rules, we can’t collect the first $50.00 of the questioned amount, even if your bill was correct.
Special Rule for Credit Card Purchases
If you have a problem with the quality of property or services that you purchased with a credit card, and you have tried in
good faith to correct the problem with the merchant, you may have the right not to pay the remaining amount due on the
property or services. There are two limitations on this right:



You must have made the purchase in your home state or, if not within your home state within 100 miles of your
current mailing address; and
The purchase price must have been more than $50.00.

These limitations do not apply if we own or operate the merchant, or if we mailed you the advertisement for the property or
services.
VISA SUPPLEMENTAL AGREEMENT
This is part of your VISA Credit Card Agreement with Advantis Credit Union. We reserve the right to amend the VISA
Credit Card Agreement as permitted by law.
Security Interest and Credit Agreement.
By accepting or authorizing use of any credit cards issued by Advantis Credit Union, I/we acknowledge Advantis
statutory lien rights under either state or federal law and agree that such a lien is impressed as of the date that
this account is opened. I/we agree that Advantis can apply the deposits pledged at the time of any default on this
account without further notice. Additional Security: I/we understand that collateral securing other loans, except
real property, will secure this account; and that property purchased with my/our credit card(s) will also secure
this account. I/we agree that Advantis may use credit reporting agencies or otherwise verify my/our information and
my/our eligibility for accounts and services that I/we request or that Advantis may offer. If more than one person is an
owner of this account, we agree that our obligations are joint and several. I/we request a Visa Card(s). At the time the
Card(s) is/are issued, using or permitting another to use the card(s), I/we agree to be bound by the terms of the Advantis
Credit Union Visa Credit Card Account Agreement.

Updated 8/26/2019

FOR COVERED BORROWERS UNDER THE MILITARY LENDING ACT
VISA Credit Card Agreement Addendum
Military Lending Disclosure
This Military Lending Disclosure is issued pursuant to and amends your Visa Account Rates, Fees, and Terms and the
associated VISA Credit Card Account Agreement and Account Disclosures as described below.
a.

b.

c.
d.

0000001 1 AT 0.460 17/18 C1

1/7/2021 SD

e.

Borrower Certification of Active Duty. By requesting a Credit Card each borrower certifies to the Credit Union that borrower:
(i) is a Covered member as a member of the Armed Forces who is currently serving on active duty (under a call or order not less
than 30 days) Active Guard or Reserve duty; or (ii) borrower is a dependent of the Covered Member. Borrower(s) authorize the
Credit Union to verify their status as a Covered Member or dependent by obtaining information from the database of the
Department of Defense or from a consumer report obtained from a consumer reporting agency.
Military Annual Percentage Rate. Federal law provides important protections to members of the Armed Forces and their
dependents relating to extensions of consumer credit. In general, the cost of consumer credit to a member of the Armed Forces
and his or her dependent may not exceed an annual percentage rate of 36%. This rate must include, as applicable to the credit
transaction or account: the costs associated with credit insurance premiums; fees for ancillary products sold in connection with
the credit transaction; any application fee charged (other than certain application fees for a credit card account); and any
participation fee charged (other than certain participation fees for a credit card account). The Credit Union may adjust interest or
fees as necessary in any month in order to ensure that the annual percentage rate does not exceed 36%.
Payment Obligation. Your payment obligation under your Credit Card Account is set forth in the Minimum Monthly Payment
provision (Section 4) of the Credit Card Agreement.
Security Interest.
The Credit Union’s security interest in all your Credit Union shares or deposits pursuant to the Credit Card
Agreement will not apply to your Credit Card Account. A security interest in shares or deposits granted in connection with any
other credit card account, loan or line of credit does not secure the Credit Card Account identified above, in spite of any provision
that collateral securing one loan secures all of your other Credit Union obligations. However, if you establish a deposit or share
account specifically in connection with your Credit Card Account, funds deposited in that account after you establish the Credit
Card Account are subject to our security interest as set forth above in the Credit Card Agreement.
Credit Union Toll-Free Telephone Number – 800-547-5532. Call this number for verbal information about the Military Annual
Percentage Rate and your payment obligation.

Updated 8/26/2019

